                                                                    2000.04 REV-2 CHG-5



CHAPTER 5.        DEVELOPMENT COST CERTIFICATION AUDIT GUIDANCE



5-1 Program Objective. Multifamily projects are an integral part of the U.S. Department
    of Housing and Urban Development’s (HUD) housing programs, which have the
    objectives of providing decent, safe, affordable, and sanitary housing for low- and
    moderate-income families. *The loans for the multifamily projects are insured through
    the multifamily project loan program. *HUD- Federal Housing Administration (FHA)
    insures lenders against losses on mortgages providing the financing for the construction
    or rehabilitation of multifamily rental projects. For the insured loan program, the
    project is ordinarily HUD’s only source for loss recovery in the event of a foreclosure.
    Therefore, it is essential that collateral value be commensurate with the insurance risk.

     *This handbook chapter is intended for use by for-profit mortgagors to provide audit
     guidance for the audit of development cost certifications. However, this chapter can
     also be used to provide audit guidance to not-for-profit mortgagors for their audits of
     development cost certifications as provided for under OMB Circular A-133, paragraph
     235(a), program-specific audit guide available.*


5-2 Program Procedures. *The cost certification is the basis for HUD’s determination of
    the project’s actual development cost and/or the maximum insurable mortgage, which
    is necessary before the project may proceed to final formal endorsement, a critical
    factor to multifamily projects. The effective date for the determination of actual costs
    is usually the date the HUD inspector signs the final HUD representative’s trip report
    (Form HUD-95379), provided that the trip report is subsequently endorsed by the
    construction manager. Construction must be completed, except for acceptable items of
    delayed completion (Multifamily Accelerated Processing Guide (MAP Guide), chapter
    14, section 14.7). The HUD field office manager has the option to set an earlier date to
    halt the unnecessary accumulation of certain costs. A reasonable time is set for
    submission of the cost certification, which must be in the HUD field office 30 days
    before final endorsement/closing. Typically, the cost certification is prepared and
    submitted within 60 to 90 days after the cost cutoff date. The cost certification is
    submitted in hard-copy format to the HUD field office. The cost certification is not
    submitted electronically to HUD’s Real Estate Assessment Center (REAC).

     The owner’s first operating audit will cover the period beginning on the day after the
     cost certification cutoff through the owner’s fiscal year end. All operating audits must
     be prepared in accordance with chapter 3, HUD Multifamily Housing Programs, of this
     guide and must be submitted to REAC electronically via the Financial Assessment
     Subsystem (FASS) within 90 days of the owner’s fiscal year end.*



                                            5-1
                                                                                      3/2007
2000.04 REV-2 CHG-5



     *On occasion, the owner may be responsible for submitting financial statements with
     reporting periods of less than 12 months (referred to as a stub period). If that reporting
     period is less than 90 days, upon request, HUD may approve the deferment of the
     owner’s reporting of the stub period and add that period to the next full year financial
     statements (Submission and Review Requirements & REMS Critical Data Fields for
     Annual Financial Statements, attachment 2, paragraph C).*

     HUD expects completed certifications, fully documented and in the prescribed format,
     to be submitted by the mortgagor. If an identity of interest exists between the
     mortgagor and the contractor or if a cost plus type construction contract was used, the
     contractor is also required to submit a cost certification. Similarly, if an identity of
     interest exists between a subcontractor, materials supplier, or equipment lessor, a cost
     certification must be submitted. Additional support for any cost items questioned by
     HUD is expected within 15 days of the request. Extended delays in the cost
     certification process, which postpone final endorsement, can cause substantial harm to
     the project’s viability and eventual success.


5-3 Reference Material. *One of the primary sources of guidance for cost certifications is
    the MAP Guide. In particular, chapter 14 contains the most current guidance issued by
    HUD regarding the cost certification process. The following is the reference material
    that was in effect at the time this handbook chapter was issued. It is the auditor’s
    responsibility to use the appropriate reference material that was in effect during the
    period covered by the audit.

     Throughout this chapter, reference is made to handbooks using the base handbook
     number without the revision number (i.e., REV-1, REV-6, etc.). This will enable
     periodic updates to paragraph 5-3 rather than revising the references in the entire
     handbook/chapter. Also, the auditor should ensure that the updated reference is used
     for performing the audit. If reference to the handbook is needed in the audit report, the
     auditor should ensure that the entire updated reference, including the revision number,
     is used.*

            Document                                            Title
                                         Supportive Housing for Elderly, Conditional
 HUD Handbook 4571.5
                                         Commitment - Final Closing
                                         Supportive Housing for Persons with Disabilities,
 *HUD Handbook 4571.4
                                         Conditional Commitment - Final Closing*
                                         Section 202 Direct Loan Program for Housing for
 HUD Handbook 4571.1, REV-2
                                         the Elderly and/or Handicapped



                                             5-2
                                                                                       3/2007
                                                                               2000.04 REV-2 CHG-5



              Document                                                   Title
                                               Cost Certification Guide for Mortgagors and
    HUD Handbook 4470.2, REV-1                 Contractors of HUD-Insured and Section 202/811
                                               Multifamily Projects
                                               Mortgage Credit Analysis for Project Mortgage
    HUD Handbook 4470.1, REV-2
                                               Insurance, Section 207

    HUD Handbook 4450.1, REV-1                 Cost Estimation for Project Mortgage Insurance

                                               Project Construction and Servicing Before Final
    *HUD Handbook 4435.1, REV-1
                                                Closing*
                                               Redesigned Section 202 Supportive Housing for
                                                the Elderly and Section 811 Supportive Housing
    *Notice H 96-102
                                                for Persons with Disabilities Programs - Firm
                                                Commitment*
                                               Multifamily Accelerated Processing Guide
    *Mortgagee Letter 04-41
                                                Revised March 15, 2002 (1)*
                                               Submission and Review Requirements & REMS
    *Document does not have a HUD
                                                Critical Data Fields for Annual Financial
    number or transmittal reference
                                                Statements (2)*

*
               (1) = This document is not a numbered document under the HUD
                   unified issuance system and can be obtained by using the following
                   link:

               http://www.hud.gov/offices/hsg/mfh/map/mapguide/mapguide.cfm

               (2) = This document is not a numbered document under the HUD
                   unified issuance system and can be obtained by using the following
                   link:

               http://www.hud.gov/offices/reac/products/PDFs/finl_memo_2004_1a.pdf


        If the program participant does not have this reference material, it may be obtained by
        accessing HUD’s Client Information and Policy System (HUDCLIPS) at the following
        Web site:

                                       http://www.hudclips.org/cgi/index.cgi
                                                                                                 *




                                                   5-3
                                                                                            3/2007
2000.04 REV-2 CHG-5



    *or may be ordered from HUD’s Direct Distribution System by telephone at (800) 767-
    7468; in a letter addressed to HUD, Customer Service Center, Room B-100, 451
    Seventh Street, SW, Washington, DC 20410; or by fax at (202) 708-2313.


5-4 Reporting Requirements.

    Regulations at 24 CFR [Code of Federal Regulations] 200.95, 200.96, 200.97, and
    891.545 require mortgagors/borrowers to submit certificates of actual cost before final
    endorsement of the insured loans or disbursement of loan proceeds or capital advances
    for the project. Mortgagors and contractors are required to determine costs in
    accordance with Mortgage Credit Analysis for Project Mortgage Insurance, HUD
    Handbook 4470.1; Cost Certification Guide for Mortgagors and Contractors of HUD-
    Insured Multifamily Projects, HUD Handbook 4470.2; Chapter 5, Supportive Housing
    for Persons with Disabilities, Conditional Commitment - Final Closing, HUD
    Handbook 4571.4; Chapter 5, Supportive Housing for Elderly – Conditional
    Commitment Final Closing, HUD Handbook 4571.5; Section VI of HUD Notice H 96-
    102; and chapter 14 of the MAP Guide. The MAP Guide, as well as HUD Handbook
    4470.2, contains the requirement for who among the mortgagor, general contractor,
    subcontractors, and suppliers must provide cost certifications, guidance on eligible
    costs, necessary financial statements which must accompany the certificate of actual
    cost, and details concerning the mortgagor’s Form HUD-92330 and contractor’s Form
    HUD-92330-A.

    Mortgagors and contractors must prepare certification of actual cost and submit the
    required financial statements. The mortgagor’s certificate of actual cost (Form HUD-
    92330) shall be submitted after the cost certification cutoff date. It is submitted upon
    completion of the physical improvements to the satisfaction of HUD and before
    endorsement. The certificate shall show the actual cost to the mortgagor after
    deduction of any kickbacks, rebates, trade discounts, or other similar payments to the
    mortgagor or officers, stockholders, or partners. Those documents must be prepared in
    conformity with the basis of accounting and reporting procedures prescribed by HUD,
    which is a comprehensive basis of accounting other than generally accepted accounting
    principles. The owner must sign and date Form HUD-92330, and the contractor must
    sign and date Form HUD-92330-A, in the areas provided on the forms, by no later than
    the date of the audit opinion.

    A. Mortgagor Submission Requirements. Mortgagors must certify for all projects
       except 207/223(f) refinances in which the insured value is 80 percent or less of
       value. They are to submit the mortgagor’s cost certification (Form HUD-92330)
       supported by an accountant’s opinion, an audited balance sheet of the mortgage
       entity as of the cutoff date, and an audited operating statement if occupancy*



                                           5-4
                                                                                     3/2007
                                                                 2000.04 REV-2 CHG-5



   *occurred before the cost certification cutoff date. An audit report with the
   certification by an independent certified public accountant or an independent public
   accountant must accompany the mortgagor’s certification of actual cost, the audited
   balance sheet and operating statement of the mortgagor, and the contractor’s
   certificate of actual cost (Form HUD-92330A). The period covered by the
   operating statement is from the beginning of marketing and rent-up activities to the
   cutoff date. Costs reported on Form HUD-92330 support certain entries on the
   required financial statements. If there were more than three months between the
   cost cutoff date and the start of amortization, the mortgagor must submit a
   supplemental operating statement.

   The certificate of actual cost, auditor’s reports, and required financial statements are
   to be submitted to the applicable HUD field office.

   The auditor must conduct the audit under both the auditing standards generally
   accepted in the United States of America and the generally accepted government
   auditing standards (GAGAS) issued by the comptroller general of the United States
   (MAP Guide chapter 14, section 14.11, paragraph 6 and chapter 2 of this guide).
   Illustrative reporting information on the cost certification is provided in paragraph
   5-7 of this chapter.

B. Contractor Submission Requirements: Contractors must certify when

    (1)   The contractor has an identity of interest with the mortgagor and/or

    (2)   The contractor used the Construction Contract Cost Plus, Form HUD-
          92442-A.

   A subcontractor at any tier, equipment lessor, material supplier, and manufacturer
   of industrialized housing must certify when

    (3)   The total of all subcontracts, purchases, and leases is more than .5 percent of
          the mortgage and

    (4)   An identity of interest exists or comes into being between such
          subcontractor, equipment lessor, material supplier, or manufacturer of
          industrialized housing and either the mortgagor or the contractor if the
          contractor must certify.

   The contractor is to submit a certificate of actual cost (Form HUD-92330A),
   supported by an accountant’s opinion, to the mortgagor. A certification by an
   independent certified public accountant or an independent public accountant must*



                                        5-5
                                                                                   3/2007
2000.04 REV-2 CHG-5



       *accompany the contractor’s certification of actual cost. The auditor must use
       GAGAS in auditing the cost certification. No other financial statements or reports
       of the contractor are required to be submitted. The contractor should submit the
       reporting package to the mortgagor for inclusion in the mortgagor’s submission to
       the appropriate HUD field office.*


5-5 Compliance Requirements and Audit Area.

    A. Federal Financial Reports.

       1. Compliance Requirement. Projects with a HUD - insured mortgage or
          receiving HUD direct loans or capital advances are required to ensure that
          financial status reports contain reliable financial data and are presented in
          accordance with the terms of applicable agreements between the entity and
          HUD. The individual agreements contain the specific reporting requirements
          that the entity is to follow.

       2. Suggested Audit Procedures.

          a. Identify all required financial reports by inquiry of the owner/manager.

          b. Obtain an understanding of the auditee’s procedures for preparing and
             reviewing the financial reports.

          c. Select a sample of financial reports, other than those which are included in
             the audited financial statements, and determine that the reports selected are
             prepared in accordance with HUD instructions.

          d. For the sample, trace significant data to supporting documentation; i.e.,
             worksheets, ledgers, etc. Report all material differences between financial
             reports and project records.

          e. Review adjustments made to the general ledger accounts affecting HUD-
             assisted activity and evaluate for propriety.

    B. Accounting System.

       1. Compliance Requirement. Mortgagors and contractors involved in projects
          that are to receive HUD-insured loans and capital advances have agreed to
          maintain adequate records for the purpose of determining the eligible costs
          associated with the projects (HUD Handbook 4470.2, chapter 3).



                                          5-6
                                                                                   3/2007
                                                                  2000.04 REV-2 CHG-5




   2. Suggested Audit Procedures.

       a. Obtain an understanding of the mortgagor’s and contractor’s accounting
          system for identifying actual costs associated with a given project. Test the
          system to determine whether it identifies the costs to be reported on the
          Form HUD-92330 on an individual project basis.

       b. Review Form HUD-92330 for completeness and support by the accounting
          records.

       c. Trace significant data from Form HUD-92330 to supporting documentation;
          i.e., worksheets, ledgers, etc. Report all material differences between the
          amounts reported on the Form HUD-92330 and the supporting documents.

C. Cutoff Timing and Eligibility of Costs.

   1. Compliance Requirement. As a general rule, only the costs which have been
      or will be paid in cash within 45 days after the date of final endorsement or
      closing or which are escrowed with the mortgagee are eligible for inclusion on
      the mortgagor’s or contractor’s certificates of actual cost.

       For projects with insured mortgages, the mortgagor determines the cost cutoff
       date for the actual cost of the interest, taxes, insurance, and mortgage insurance
       premium as well as soft costs and special escrow items. This date may, at the
       earliest, be the same date as the final completion date and, at the latest, be a date
       60 days after the final completion date or, at the mortgagor’s option, any date in
       between. The date chosen as the cutoff date and the date to which the operating
       statement and balance sheet are computed must be the same. *The mortgagor,
       general contractor, and mortgagee will be notified in writing of the final
       completion date (MAP Guide chapter 14, section 14.7).*

       The final completion date is the date on which the HUD inspector signs the final
       HUD Representative’s Trip Report, Form HUD-95379, showing substantial
       completion. The field construction manager must properly endorse this form.

       HUD notifies the mortgagor/borrower, the general contractor, and the
       mortgagee of the date of completion in writing. This date becomes the basis for
       establishing the cutoff date for insured projects, direct loan projects, and capital
       advance projects (HUD Handbook 4470.2, chapter 1, *and MAP Guide, chapter
       14)*.




                                        5-7
                                                                                    3/2007
2000.04 REV-2 CHG-5



           Eligible costs are those costs of the project construction and certain fees paid in
           cash or such costs that will be paid in cash within 45 days of final endorsement.
           HUD Handbooks 4470.1; 4450.1; and 4470.2, chapter 2, contain information on
           allowable costs to be reported on Form HUD-92330 and the ways in which
           costs are to be adjusted for items considered to be a recovery of costs.

       2. Suggested Audit Procedures.

           a. Review the trip report, Form HUD-95379, or similar notification to
              determine the final completion date.

           b. Based on the completion date, the mortgagor/borrower determines the
              project’s cutoff date for time-sensitive expenses, such as interest, taxes,
              insurance, mortgage, and property insurance premiums, as well as soft costs
              and special escrow items. Review these costs/charges to determine that
              none were incurred after the cutoff date *and that the costs are proper
              charges to the project.*

           c. Review the other amounts claimed on Form HUD-92330 to determine that
              the claims represent those expenses paid in cash or expected to be paid in
              cash within 45 days after final closing on behalf of the project. All amounts
              claimed should be net of any adjustments or recoveries of costs.

    D. Identity of Interest.

       1. Compliance Requirement. HUD Handbooks 4430.1; 4470.1; 4470.2, chapter
          3; and MAP Guide, chapter 14, Section 14.15, describe several situations, which
          constitute an identity of interest involving a mortgagor, a contractor, a
          subcontractor, or a materials supplier. When an identity of interest exists, the
          contractor must also submit a certificate of actual cost, or the party involved in
          the identity of interest is required to submit additional documentation as
          required by HUD Handbook 4470.2, chapter 3. The contractor is also required
          to submit a certificate of actual cost if a cost plus construction contract was
          used.

       2. Suggested Audit Procedures.

           a. Review mortgagor and project records such as contracts and vendor invoices
              to determine whether an identity of interest exists among any of the parties
              involved in the project, from mortgagors to contractors, suppliers, and
              equipment lessors. *Inquire to determine whether an identity-of-interest
              relationship exists.*



                                            5-8
                                                                                      3/2007
                                                                       2000.04 REV-2 CHG-5



             b. When an identity of interest exists, determine that the additional reporting
                requirements of HUD Handbook 4470.2 and MAP Guide, chapter 14, have
                been met.

  *
5-6 Audit Finding Reporting.

    All material instances of noncompliance with any HUD requirement or regulation,
    deficiencies in internal control, fraud or illegal acts, or contract violations that were
    disclosed during the audit process must be reported as findings in the audit report. All
    nonmaterial instances of noncompliance, deficiencies in internal control, fraud or illegal
    acts, or contract violations disclosed during the audit process may be reported separately
    to management. Such reporting must be in writing in a management letter or other type
    of written auditor communication and must be mentioned in the independent auditor’s
    report, including the date of the management letter or other written communication.
    Noncompliance’s, deficiencies, or instances of violations that were corrected during the
    audit process, after the fiscal year under audit, or disclosed as a part of the audit process
    before the end of the fiscal year under audit and/or before the issuance of the audit report
    must be included in the report as resolved findings or in a management letter or other
    types of written auditor communication, depending on their materiality.

      A. Content of Finding.
         Findings are to be presented in accordance with the standards and requirements of
         the “Yellow Book.” A finding should be supported by sufficient, competent, and
         relevant evidence; be presented in a manner to promote adequate understanding of
         the matters reported; and provide convincing but fair presentations in proper
         perspective.

         Please refer to chapter 2 for the information that is to be included in a finding.

      B. Corrective Action in Process.

         Many times when auditees are presented with draft findings, they will start to take
         action to correct the deficient condition. When this action is underway and the
         auditor has completed his/her fieldwork, the auditee can include the action
         completed and the action remaining to be taken in the auditee’s comments and in
         the corrective action plan. Regardless of whether the auditee is in the process of
         correcting the finding, the auditor is to include the finding in the report with all
         required elements.*




                                              5-9
                                                                                          3/2007
2000.04 REV-2 CHG-5



    C. *Corrective Action Completed.

       Many times when auditees are presented with draft findings, they will start to take
       action and complete that action, correcting the deficient condition before the
       completion of the fieldwork. When this occurs, the finding is still to be included in
       the audit report with all required elements. The action taken/completed should be
       included in the auditee’s comment section and should be validated by the auditor.
       The recommendation section should follow the auditee’s comment section, and the
       auditor should state whether he/she validated the action or not. In addition, the
       auditor could include any additional recommendations he/she believes necessary
       based on their validation of that action.

       If costs are involved and if those costs have been repaid, the auditor should validate
       that the auditee made the necessary adjustments to its books-of-account. The
       auditor’s certified statements should contain all necessary adjustments to the
       reported amounts, with appropriate notes, so that the certified costs of the project
       are accurately stated. Comments should also be included in the report in the “action
       taken” section of the finding. *




                                          5-10
                                                                                     3/2007
                                                                       2000.04 REV-2 CHG-5




5-7 Illustrative Reporting. *These samples are for the Sample Company, which is a
    partnership. The wording is to be changed based on the type of ownership of the
    property.*




                   Report of Independent Certified Public Accountants


        To the Partners
        Sample Company

        We have audited the mortgagor’s certificate of actual costs (Form HUD-92330),
        through [insert cutoff date, for example, April 30, 2010]; pertaining to the
        development of the Sample Company, Project No. [Insert project number]. We have
        also audited the [insert names of statements included in the report (financial
        statement)] as of [insert the cutoff date, for example, April 30, 2010], and the results
        of project operations for the period from [insert date, for example, August 28, 2008,
        which is the date of commencement of marketing and rent-up activities, etc.] through
        [insert the cutoff date, for example, April 30, 2010]. The Form HUD-92330 and the
        financial statements are the responsibility of the Sample Company’s management.
        Our responsibility is to express an opinion on the Form HUD-92330 and on the
        financial statements based on our audit.

        We conducted our audit in accordance with auditing standards generally accepted in
        the United States of America and the government auditing standards issued by the
        comptroller general of the United States. Those standards require that we plan and
        perform the audit to obtain reasonable assurance about whether the Form HUD-92330
        and the financial statements are free of material misstatement. An audit includes
        examining, on a test basis, evidence supporting the amounts and disclosures in the
        Form HUD-92330 and in the financial statements. An audit also includes assessing
        the accounting principles used and significant estimates made by management, as
        well as evaluating the overall financial statement presentation. We believe that our
        audit provides a reasonable basis for our opinion.

        As described in note [insert the note number], the certificate of actual cost (Form
        HUD-92330) and the project’s financial statements were prepared in conformity with
        the basis of accounting and reporting practices prescribed by the U.S. Department of
        Housing and Urban Development (HUD), which is a comprehensive basis of



                                             5-11
                                                                                        3/2007
2000.04 REV-2 CHG-5



     accounting other than generally accepted accounting principles. Further, the
     accompanying financial statements represent the financial statements of the project.

     In our opinion, the mortgagor’s certificate of actual costs (Form HUD-92330) and the
     financial statements referred to above present fairly, in all material respects, the actual
     costs of the Sample Company, through [insert cutoff date, for example, April 30,
     2010]; the assets, liabilities, and project equity as of [insert cutoff date, for example,
     April 30, 2010]; and the results of project operations for the period from [insert date,
     for example August 28, 2008, which is the date of commencement of marketing and
     rent-up activities, etc.] through [insert cutoff date, for example, April 30, 2010], on
     the basis of accounting described in note [insert the note number].

     In accordance with government auditing standards,, we have also issued our report
     dated [date of report] on our consideration of the Sample Company’s internal control
     over financial reporting and on our tests of its compliance with certain provisions of
     laws, regulations, contracts, and grant agreements and other matters. The purpose of
     that report is to describe the scope of our testing of internal control over financial
     reporting and compliance and the results of that testing, and not to provide an opinion
     on the internal control over financial reporting or on compliance. That report is an
     integral part of an audit performed in accordance with government auditing standards
     and should be considered in assessing the results of our audit.

     This report is intended solely for the information and use of the board of directors and
     management of the Sample Company and HUD and is not intended to be and should
     not be used by anyone else other than these specified parties.


     Certified Public Accountant Signature
`

     Date




                                            5-12
                                                                                        3/2007
                                                              2000.04 REV-2 CHG-5



                                  Sample Company
                              Project No. XXX-XXXXX

                            Notes to Financial Statements


               Summary of Significant Accounting Policies

 Basis of Presentation

The financial statements have been prepared in conformity with the accounting and
reporting standards prescribed by the U.S. Department of Housing and Urban
Development (HUD) in the Audit Guide for Auditing Development Costs of
HUD-Insured Multifamily Projects. These standards differ in some respects from
generally accepted accounting principles, and the financial statements reflect the
following additional HUD accounting and reporting principles:

 a.    Costs are to be exclusive of kickbacks, rebates, or trade discounts.

 b.    Financing charges are limited to the lesser of amounts actually paid or
       amounts approved by HUD on the mortgagee’s certificate. For this project,
       the financing charges are the amounts [insert comment that applies - actually
       paid or approved by HUD].

 c.    The (insert actual name of statement; i.e., statement of rental operations)
       reflects the rental activity and operating expenses of the project beginning
       [insert date of commencement of marketing and rent-up activities, etc., for
       example, August 28, 2008]. The statement does not include depreciation and
       amortization expenses and certain other expenses, which are not incidental to
       the rental operation of the project.

 d.    Project equity represents the difference between the funds received by the
       project from Sample Company and the costs incurred to develop the project,
       plus the income from the project. More detailed information on the
       determination of equity is contained in the MAP Guide, chapters 7, 12, and
       14. Further, partners’ (members’) (nonproject) obligations are classified as
       project equity. Partners’ (members’) equity is not intended to reflect the
       actual equity of the partnership because it may include partnership obligations
       and adjustments for the as-is value of land. The financial statements are not
       intended to represent those of the partnership.




                                     5-13
                                                                              3/2007
 2000.04 REV-2 CHG-5




                                         Sample Company
                                     Project No. XXX-XXXXX

                                    Notes to Financial Statements

                        Summary of Significant Accounting Policies

         Organization

        Sample Company is a limited partnership organized under the laws of the state of
        [Insert name of State], for the purpose of developing and operating a 203-unit project
        located in [location of project]. The partnership will operate under the provisions of
        Section 221(d) (4) of the National Housing Act, with mortgage insurance provided by
        the Federal Housing Administration (FHA) of the U.S. Department of Housing and
        Urban Development.

        The responsibility for management of the affairs of the partnership and the ongoing
        management of the Sample Company is vested with the general partners.
        Compensation for such services is as determined in the management agreement
        between the partners.

  *
5-8 Technical Assistance Needed.

 The chief, Technical Support Division, Office of Multifamily Housing Development, is
 responsible for answering programmatic questions for the programs being audited using the
 procedures outlined in this chapter. Programmatic questions on audits performed using this
 chapter should be referred to that office, 202-708-0614, extension 2559.*




                                            5-14
                                                                                       3/2007
